Policies and Procedures Manual Chapter PER-6, Federal Employees Compensation Program,
dated March 31, 1992. We interviewed members of HRB, Operations-Management, and Office
of the Executive Secretary to determine the procedures for monitoring cases, processing
workers’ compensation claims, and monitoring continuation of pay benefits. We interviewed
five NLRB employees to obtain their feedback regarding the workers’ compensation process.
We also interviewed five NLRB supervisors to obtain additional information on the timeliness of
claims filed.

        We compiled a list of NLRB employees who filed claims or received benefits during
Fiscal Year (FY) 2006 and FY 2007, through July 20, 2007, from a list maintained by HRB,
chargeback reports compiled by OWCP, and employees receiving continuation of pay benefits.
We reviewed case files to determine whether the Agency regularly monitored cases to verify
benefit eligibility. We reviewed claims filed to determine whether they were received by OWCP
in a timely manner and the appropriateness of continuation of pay benefits for the four
employees who received this benefit. We also determined whether Special Counsel reviewed
applicable claims.

        We conducted this review from June to September 2007. This review was done in
accordance with the Quality Standards for Inspections issued by the President's Council on
Integrity and Efficiency.


BACKGROUND

        FECA provides compensation benefits to civilian employees of the United States for
disability due to personal injury or disease sustained while in the performance of duty and
provides for payment of benefits to dependents if a work-related injury or disease causes an
employee’s death. FECA is administered by OWCP. Benefits are available only while the
effects of a work-related condition continue. Each disabled employee is obligated to perform
such work as he or she can, and OWCP’s goal is to return each disabled employee to suitable
work as soon as he or she is medically able.

        The NLRB is responsible for: providing advice, information, and instructions regarding
FECA to employees and supervisors; processing reports, statements, and forms; and cooperating
and serving as liaison with OWCP. Agency responsibilities also include submitting all relevant
factual and medical evidence in its possession or which it may acquire through investigation or
other means. The Employee Relations Section of HRB handles workers’ compensation claims.
Three human resources specialists are assigned to work on cases based on geographic location
and caseload.

       FECA costs are financed by the Employees’ Compensation Fund and are assigned to
employing agencies annually at the end of the fiscal accounting period, which runs from July to
June. Each year, OWCP furnishes agencies with a chargeback report which is a statement of
payments made from the Employee’s Compensation Fund on account of injuries to employees.
The NLRB costs were $394,958 for the period of July 1, 2005, through June 30, 2006, and
$450,333 for the period of July 1, 2006, through June 30, 2007.

                                               2
       We identified 64 cases within the scope of our review, 25 of which were submitted prior
to FY 2006 and account for 89 percent of the NLRB’s FECA related costs. The remaining 39
cases were submitted in FY 2006 and FY 2007.


RESULTS

Case Management

       In the interest of providing good service to employees while containing costs, OWCP
encourages active management of workers’ compensation cases by agency personnel. This
includes obtaining medical information from OWCP or the injured employees as often as
necessary to assess potential return to regular, light, or limited duty.

       The Agency is not effectively managing workers’ compensation cases. Of the 20 cases
we identified requiring regular monitoring, 13 were not regularly monitored. Eight of these
cases had compensation or medical payments and five were survivor benefits payments. We
were unable to review another case because there was no file maintained in HRB.

        Sufficient medical documentation was not maintained for eight cases to verify the
claimant’s continued eligibility for benefits. Medical documentation was at least 2 years old in
most cases. In one file, the most recent medical documentation was dated July 16, 1994, and
stated that the individual was cleared to work 8 hours per day with restrictions; however, there
was no evidence in the file that any job offers were made to the individual. This recipient is
currently receiving $1,676 in monthly disability payments. We believe that medical updates
should be obtained at least annually to review the claimant’s eligibility and to identify any return
to work opportunities.

       For the five survivor benefits cases, the Agency has not been confirming the eligibility of
survivors to continue to receive benefits. These cases accounted for approximately 61 percent of
the Agency’s FECA costs from July 1, 2005, through June 30, 2007. According to HRB, OWCP
contacts survivors annually to confirm eligibility, but there were no records to document these
annual confirmations. By not verifying the eligibility of survivors, the Agency is at risk for
making improper payments.

Timeliness

       Federal regulations require that the Agency complete and transmit Federal Employee’s
Notice of Traumatic Injury and Claim for Continuation of Pay/Compensation (Form CA-1) and
Notice of Occupational Disease and Claim for Compensation (Form CA-2) to OWCP within 10
working days after receipt of notice from the employee if the injury or disease will likely result
in: a medical charge against OWCP; disability for work beyond the day or shift of injury; the
need for more than two appointments for medical examination and/or treatment on separate days,
leading to time loss from work; future disability; permanent impairment; or the payment of
continuation of pay. The Agency should not wait for submittal of supporting evidence before
sending the form to OWCP.

                                                 3
        The NLRB’s workers’ compensation claims were not received timely by OWCP. Of the
29 cases we reviewed, 25 were not received by OWCP within 10 working days. For the
remaining cases, we were unable to determine the timeliness of one case because OWCP had not
received the Form CA-1, and we were unable to determine the timeliness for another case
because the date the notice was received by the supervisor was blank. Late claim submissions
could delay the claimant’s benefits. On average, it took 29 working days for OWCP to receive
the claim forms, with a majority taking more than 21 working days as shown in the chart below.

                                Working Days         Claims Filed
                                ≤ 10                            2
                                11-20                           7
                                21-30                           8
                                ≥ 31                           10
                                Not Received                    1
                                Undated                         1
                                                               29

        The Employee Relations Section Chief stated that the NLRB has experienced problems
with forms being received by OWCP, specifically when the claim forms are mailed. Therefore,
HRB is now faxing claim forms and sending a hard copy. Also, she said that the use of
interoffice mail by field offices delayed the receipt of claims in HRB. She said that office
managers were recently told to either fax or e-mail claim forms.

Continuation of Pay

         For most employees who sustain a traumatic injury, FECA provides that the Agency must
continue the employee’s regular pay during any periods of resulting disability, up to a maximum
of 45 calendar days, except when conditions that effect eligibility are not met, including that the
employee stopped working more than 45 days following the injury. This process is called
continuation of pay. When OWCP finds that the employee is not entitled to continuation of pay
after it has been paid, the employee may choose to have the time charged to annual or sick leave
or incur a debt.

        Of the four employees who received continuation of pay, one was ineligible and
another’s claim was later denied. This led to an overpayment of $1,883. In one case, an
employee was not eligible for continuation of pay because time loss was not within 45 days of
the injury. The employee’s date of injury was September 27, 2006, but the first day that she
received the continuation of pay benefit was not until December 21, 2006, 85 days after the
injury occurred. Timekeepers manually enter pay codes for the continuation of pay into the
Agency’s payroll system, but the payroll system does not have the capability to track the number
of days continuation of pay is used after an injury. Another employee used 2 days of
continuation of pay. The claim was later denied by OWCP and the hours charged to
continuation of pay were not corrected.




                                                4
Special Counsel Review

       The Deputy Associate General Counsel in Operations-Management requested that HRB
inform Special Counsel of every case involving Operations-Management and field employees.
The Executive Secretary also requested that HRB notify Special Counsel of any claims involving
Board employees, including employees in the Division of Judges, as soon as HRB becomes
aware that a potential claim exists. Special Counsel will then review any submission or
correspondence made on behalf of the Agency prior to forwarding it to OWCP.

       The HRB is not complying with the requests for Special Counsel review. Of the 33 cases
we identified, Special Counsel did not review 14. Twelve of these cases involved field
employees, and the other two were filed by Board employees.

       The Director of Human Resources disagreed with having Special Counsel review
workers’ compensation claims because she has concerns about sharing medical information
regarding employees with people outside the employee’s chain of command. Special Counsel
provides legal advice to the Board and General Counsel in employment matters; accordingly,
Special Counsel has a need-to-know this information.


SUGGESTIONS

We suggest that the Human Resources Director:

   1. Establish procedures to actively manage cases and ensure that updates are obtained.

   2. Establish procedures to ensure that all claims are received by OWCP within 10 working
      days.

   3. Correct the two instances in which the employees’ claims were either ineligible for
      continuation of pay or were denied.

   4. Establish procedures to ensure that Special Counsel reviews all cases involving
      Operations-Management, field, Board, and Division of Judges employees.


cc: Board
    General Counsel
    Director of Administration




                                              5
